Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



July 6, 2011

Kim
  mberly S. Grreene, WT 7B-K

 EQUEST FOR FINAL AC
RE                 CTION – AUDIT 2010-13
                                       3286 – DIST
                                                 TRIBUTOR A
                                                          AUDIT OF
WA
 ARREN RURRAL ELECTR
                   RIC COOPE ERATIVE COORPORATIO ON



Atta
   ached is the
              e subject fina
                           al report for your
                                         y     review and action. Your written commentss,
which addresse ed your man nagement de   ecision and a
                                                     actions plannned or taken
                                                                             n, have been
                                                                                        n
included in the report. Plea
                           ase notify us s when final action is complete.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee informationn in this repo
                                        ort that you rrecommend be withheld  d.

If you
   y have any  y questions, or wish to discuss
                                        d                         ase contact me or Richa
                                                our ffindings, plea                     ard C.
Underwood, Ac  cting Directo            or Audits, at (423) 785-4824. We ap
                           or, Distributo                                   ppreciate the
                                                                                        e
couurtesy and cooperation received
                           r             m your staff during the a
                                      from                        audit.



Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Inspections)
ET 3C-K

SLSS:JP
Atta
   achment
cc (Attachmentt):
      Steve Byone, WT 4B   B-K
      Michael B.
               B Fussell, WT
                           W 9B-K
      Peyton T. Hairston, Jr.,
                            J WT 7B-K  K
      Tom Kilgoore, WT 7B--K
      Richard W.
               W Moore, ET E 4C-K
      Robert A. Morris, WT  T 7C-K
      Emily J. Reynolds,
               R           OCP
                           O     1L-NST
      Stephen B. Summers     s, WT 4B-K
      John M. Thomas
               T        III, MR
                             M 6D-C
      John G. Trawick,
               T        WT  T 3D-K
      Robert B.. Wells, WT 9B-K
      OIG File No. 2010-13  3286
        
 


                                 Audit Report
 
Office
      of the Inspector General                               

                                 To the Group President,
                                 Strategy and External  
                                 Relations
                                                             

 

 

 

 


DISTRIBUTOR AUDIT OF
 

 
WARREN RURAL
 

ELECTRIC
COOPERATIVE
CORPORATION
 




 

 
 
 

 
Audit Team                                 Audit 2010-13286
Stephanie L. Simmons                             July 6, 2011
Jessica L. Monroe
Office of the Inspector General                                            Audit Report




ACRONYMS AND ABBREVIATIONS
FY                         Fiscal Year
kW                         Kilowatt
kWh                        Kilowatt Hours
OIG                        Office of the Inspector General
RUS                        Rural Utilities Services
SEDC                       Southeastern Data Cooperative
TVA                        Tennessee Valley Authority
WRECC                      Warren Rural Electric Cooperative Corporation




Audit 2010-13286
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   DISTRIBUTOR USED ELECTRIC SYSTEM REVENUES
   FOR NONELECTRIC PURPOSES .................................................................. 2

   SOME CUSTOMER ACCOUNTS WERE MISCLASSIFIED AND/OR
   OTHERS WERE NOT METERED FOR DEMAND AS REQUIRED ................. 4

   ADEQUATE CASH RESERVES ...................................................................... 6

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 8

RECOMMENDATIONS .................................................................................. 8


APPENDICES
A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED JUNE 30, 2011, FROM GARY K. DILLARD TO ROBERT E.
   MARTIN

C. MEMORANDUM DATED JUNE 30, 2011, FROM KIMBERLY S. GREENE TO
   ROBERT E. MARTIN




Audit 2010-13286
                 Audit
                 A     2010
                          0-13286 – Distribu
                                           utor Auditt of Warre
                                                              en Rural
                          Electric
                          E        Cooperat
                                   C       tive Corpooration
                                       EXE
                                         ECUTIVE S
                                                 SUMMAR
                                                      RY

Why the OIG Did
              d This Aud
                       dit

  As part of our annual
                  a       audit plan, the OIIG (Office off the Inspecttor General) audited Wa    arren
  Rurral Electric Cooperative
                  C             Corporationn’s (WRECC   C) compliance  e with the poower contracct
  between the Te  ennessee Va  alley Authoriity (TVA) an d WRECC, a power disttributor base      ed in
  Bowwling Green, Kentucky, for f the auditt period July 2008 throug   gh June 201 10. Key contract
  pro
    ovisions incluuded (1) propper reportingg of electric sales, (2) noondiscrimina ation in providing
  pow
    wer, and (3) use of electtric revenue for approved    d purposes. For fiscal yyear 2010,
  WRRECC provid   ded power too approximattely 60,000 ccustomers th    hat resulted in electric ssales
  revenue of app  proximately $157
                               $     million.. WRECC a   also owns an nd/or operate es nonelectrric
    sinesses including a sec
  bus                         curity systemm and monito  oring servicee division, a propane sales
  sub
    bsidiary, and d a natural ga
                               as distributio
                                            on subsidiaryry, and partia
                                                                      ally owns a n nonelectric bbill
  pro
    ocessing com  mpany. In ad ddition, WRE ECC provide  es billing serrvices for a w
                                                                                    water utility.

What the
     t OIG Fo
            ound

  WRRECC generrally appears   s to be in com
                                           mpliance witth the contra act provision
                                                                                 ns for (1) pro
                                                                                              oper
  rep
    porting of ele
                 ectric sales and
                              a (2) nondiscrimination   n in providin
                                                                    ng power. However, we
  noted instances s of noncommpliance with h other provissions of the power contrract. The most
    portant instances were re
  imp                          elated to use
                                           e of electric revenues w where WREC   CC:

      Purchased a nonelectriic business with
                                         w electric revenues.
                ectric busine
       Paid nonele           ess expense
                                       es with electrric revenuess.
      Guaranteed d lines of cre
                               edit for nonelectric busin
                                                        nesses with e
                                                                    electric reve
                                                                                enues withou
                                                                                           ut
       prior approv
                  val from TVA A. 

  Oth
    her areas forr improveme ent in contrac
                                          ct compliancce were note ed regarding
                                                                              g co-mingling g of
  elec
     ctric and non
                 nelectric fun
                             nds, custome er classificattion, and me
                                                                   etering. Specifically, we
  found:

      WRECC did d not mainta
                            ain a separatte general le
                                                     edger for one
                                                                 e nonelectricc service
       division.
      Misclassifie
                  ed customer accounts an    nd a meterin
                                                        ng issue thatt could impa   act (1) the prroper
       reporting off electric sale
                                 es and/or (2) nondiscrim
                                                        mination pow  wer contract provisions. We
       were unable to estimate   e the monetary effect off all the classsification and metering
       issues we identified bec  cause in somme instance s information was not avvailable.
       However, where
                  w       we we ere able to estimate the monetary efffect on WRE     ECC and TV  VA, it
       would not be
                  b significant. According   g to WRECC C personnel,, the misclasssified customer
       accounts were
                 w      reclassiffied during the audit.



                                                                                                  Page i
               Audit
               A     2010
                        0-13286 – Distribu
                                         utor Auditt of Warre
                                                            en Rural
                        Electric
                        E        Cooperat
                                 C       tive Corpooration
                                     EXE
                                       ECUTIVE S
                                               SUMMAR
                                                    RY

  Wee also identified one areaa where TVA A’s oversightt of the distrributors shou
                                                                                 uld be enhan  nced.
  This issue, regaarding the la
                              ack of a curre
                                           ent joint cosst study, hass been reportted in previoous
    G distributor audit reportts. TVA has agreed to ta
  OIG                                                    ake correctivve action on
                                                                                 n this issue.

What the
     t OIG Re
            ecommend
                   ds

  Wee recommend    d the Group President, Strategy
                                          S        andd External RRelations, wo  ork with WRE ECC
  to (1)
     ( comply with
                 w various contract
                              c       provvisions relat ed to use off electric reve
                                                                                  enues and
  (2) remediate classification
                  c          n and meterinng issues. DDetailed reco  ommendatio  ons are listed
                                                                                              d on
  pagge 8 of this report.
                  r

Manag
    gement’s Comments
             C      s

  WRRECC and TVA management genera        ally agreed wwith our reco
                                                                   ommendatio  ons except fo or
  ourr recommend  dation to cre
                              eate an indep
                                          pendent gen neral ledger and corresp ponding acco  ounts
  for the security system and d monitoring service divission and havve taken or are taking
  actions to address the reco ommendations. The targ   get completion date for aall corrective
                                                                                             e
  actions is May 2012. See Appendix
                               A         B for WRECC C’s complete e response aand Appendixx C
  for TVA’s comp plete response.

 Audiitor’s Resp
               ponse
  Thee OIG concu urs with actio
                              ons taken an
                                         nd planned b
                                                    by WRECC a
                                                             and TVA to correct the
  identified issues.




                                                                                              P
                                                                                              Page ii
Office of the Inspector General                                                                 Audit Report


BACKGROUND
Warren Rural Electric Cooperative Corporation (WRECC) is a power distributor for
Tennessee Valley Authority (TVA) based in Bowling Green, Kentucky, with
revenues from electric sales of approximately $157 million in fiscal year (FY) 2010.
Prior to April 1, 2011, TVA relied on distributors to self-report customer usage and
subsequently the amount owed to TVA (Schedule 1). Customers are generally
classified as residential, commercial, manufacturing, and lighting. Within these
classes are various rate classifications based on the customer type and usage.
Table 1 shows the customer mix for WRECC as of June 2010.

             WRECC’s Customer Mix and Power Statistics as of June 2010
                                                Number of                                    Kilowatt
        Customer Classification                                         Revenue
                                                Customers                                   Hours Sold
    Residential                                          49,667           $75,647,186         818,543,438
    General Power – 50 Kilowatt (kW)
                                                          9,217            10,745,221          93,700,024
    and Under (Commercial)
    General Power – Over 50 kW
                                                            669            58,606,084         773,168,098
    (Commercial or Manufacturing)
    Street and Athletic                                     213              1,092,096          6,106,275

    Outdoor Lighting1                                       226              1,767,843         13,734,564

    Unbilled Revenue                                                         9,616,917        107,010,269

     Total                                               59,992         $157,475,347       1,705,252,399
                                                                                                    Table 1

TVA’s distributors are required to establish control processes over customer
setup, rate application, and measurement of usage to ensure accurate and
complete reporting to TVA. WRECC, like many other distributors, outsources its
billing and invoice processing to a third-party processor, Southeastern Data
Cooperative (SEDC). WRECC uses SEDC systems to establish and set up new
customers, input customer meter information, perform the monthly billing process,
and maintain customer account information. Additionally, SEDC provides
WRECC with management reporting capabilities (e.g., exception reports)
designed to ensure the accuracy and completeness of the customer invoice and
the purchased power invoice (Schedule 1) to TVA. All other accounting and
finance responsibilities are handled by WRECC, which has a Board of Directors
who provide oversight and a President and executive management team who
manage the daily activities.



1
     The “Number of Customers” represents those customers who only have Outdoor Lighting accounts with
     WRECC at June 30, 2010. In addition, another 12,605 customers had Outdoor Lighting accounts as well
     as accounts for other services. However, the totals for “Revenue” and “Kilowatt Hours Sold” include both
     categories of Outdoor Lighting customers.
Audit 2010-13286                                                                                      Page 1
Office of the Inspector General                                             Audit Report


In addition to the electric department, WRECC:

   Owns and operates a security system and monitoring service division.
   Owns a propane sales subsidiary.
   Owns a natural gas distribution subsidiary.
   Partially owns a bill processing company with another distributor.
   Provides billing services for a water utility.

FINDINGS
WRECC generally appears to be in compliance with the contract provisions for
(1) proper reporting of electric sales and (2) nondiscrimination in providing power.
However, we noted instances of noncompliance with other provisions of the
power contract. The most important instances were related to use of electric
revenues where WRECC (1) purchased a nonelectric business with electric
revenues, (2) paid nonelectric business expenses with electric revenues, and
(3) guaranteed lines of credit for nonelectric businesses with electric revenues
without prior approval from TVA. Other areas for improvement in contract
compliance were noted regarding co-mingling of electric and nonelectric funds,
customer classification, and metering.

As of June 30, 2010, WRECC had enough cash on hand to provide a cash
reserve equivalent to a cash ratio of about 11.7 percent, which is greater than
TVA’s established guidelines for an adequate cash ratio of 5 to 8 percent. We
also identified one area where TVA’s oversight of the distributors should be
enhanced. This issue, regarding the lack of a current joint cost study, has been
reported in previous Office of the Inspector General (OIG) distributor audit reports.

DISTRIBUTOR USED ELECTRIC SYSTEM REVENUES FOR
NONELECTRIC PURPOSES

Section 6 of the TVA power contract, “Use of Revenues,” states approved uses of
revenues from electric system operations, including any surplus, are (1) operating
expenses, (2) debt service, and (3) reasonable reserves for renewals,
replacements, and contingencies. In addition, the Schedule of Terms and
Conditions, Section 1(a), states:

    Cooperative shall administer, operate, and maintain its electric system as a
    separate department in all respects, shall establish and maintain a separate
    fund for the revenues from electric operations, and shall not directly or
    indirectly mingle electric system funds or accounts, or otherwise consolidate
    or combine the financing of the electric system, with those of any other of its
    operations. The restrictions of this subsection include, but are not limited to,
    prohibitions against furnishing, advancing, lending, pledging, or otherwise
    diverting electric system funds, revenues, credit, or property to other
Audit 2010-13286                                                                 Page 2
Office of the Inspector General                                          Audit Report


    operations of the Cooperative, the purchase or payment of, or providing
    security for, indebtedness or other obligations applicable to such other
    operations.

As discussed in detail below, WRECC used electric system revenues to
(1) purchase a propane sales company, (2) pay the obligations of a security
system and monitoring subsidiary, (3) guarantee multiple lines of credit for three
nonelectric subsidiaries, and (4) co-mingle funds of the electric department and its
security system and monitoring subsidiary.

WRECC Used Electric Revenues to Purchase a Propane Sales Subsidiary
In 1998, WRECC purchased a 50 percent interest in a propane sales subsidiary
by securing a loan for $1,645,286. In 2004, WRECC purchased the remaining
50 percent interest by securing a loan for $1,250,000. The power contract
prohibits the purchase or payment of indebtedness or other obligations
applicable to other operations of the Cooperative. The power contract also
states the Cooperative shall not consolidate or combine the financing of the
electric system with any of its other operations.

Since the initial purchase in 1998, WRECC has paid all principal and interest
payments for the loans used to purchase the subsidiary from the electric
department general fund cash account. These payments totaled $344,096 in
FY 2009 and $342,058 in FY 2010. Net margin provided by the propane
subsidiary during these years was $221,889 in FY 2009 and $363,244 in FY 2010.

TVA currently allows distributors to invest reserves in nonelectric business
ventures with prior approval from TVA. If approved, TVA and the distributor
execute appropriate legal protections, such as a joint use agreement and loan
agreement. However, WRECC did not obtain approval from TVA to use electric
revenues for the nonelectric purposes noted above, and the electric department
has not been reimbursed for these expenditures.

WRECC Diverted Electric System Funds to Pay Obligations of a Security
System and Monitoring Service Division
In 2004, WRECC absorbed a subsidiary that provided a security system and
monitoring service. Since 2004, WRECC has paid all security system and
monitoring service division expenses from the electric department general fund
cash account. These expenses have been recorded in a separate account in the
electric system general ledger and totaled $225,940 in FY 2009 and $288,542 in
FY 2010.

WRECC Co-Mingled Electric System and Security System Division Funds
WRECC maintains separate general ledgers for all subsidiaries except the
security system and monitoring service division, as noted above. The revenue,
expense, receivable and loan accounts for the security system, and monitoring
service division were included on the electric department’s general ledger. The
expenses mentioned above were paid out of the electric department general fund

Audit 2010-13286                                                               Page 3
Office of the Inspector General                                                                   Audit Report


cash account and were offset by revenues collected. WRECC personnel stated
the profit and/or loss from the security system and monitoring service division
was included in the electric department general fund cash account. Therefore,
the electric department general fund cash account included a profit of $25,040 in
FY 2009 and a loss of $14,764 in FY 2010 from the security system and
monitoring service division.

According to TVA personnel, TVA has allowed distributors to use the same bank
account(s) for both electric and nonelectric business. However, TVA personnel
stated electric and nonelectric business activity should be recorded in separate
general ledgers.

WRECC Guaranteed Nonelectric Lines of Credit With Electric System
Revenues
WRECC guaranteed nonelectric lines of credit with electric revenues without
prior approval from TVA. Specifically, WRECC guaranteed multiple lines of
credit for the (1) propane sales subsidiary ranging from $250,000 to $500,000,
(2) natural gas distribution subsidiary for $150,000, and (3) partially owned bill
processing company for $250,000. According to WRECC personnel, the lines of
credit have not been utilized. However, because the lines of credit can be drawn
upon at any time, a monetary risk to the electric department exists.

SOME CUSTOMER ACCOUNTS WERE MISCLASSIFIED AND/OR
OTHERS WERE NOT METERED FOR DEMAND AS REQUIRED

As discussed on the following page, we identified customer classification and
metering issues that could impact the (1) proper reporting of electric sales and/or
(2) ability to ensure nondiscrimination in providing power to members of the
same rate class.2 We were unable to estimate the monetary effect of the
metering issues because customer demand information was not available. For
the customer classification issues, the monetary effect on WRECC and TVA was
not significant. However, correcting customer classification and metering issues
is important to ensure all customers are placed in the correct rate classification
and charged the same rate as other customers with similar circumstances.

Customer Classification Issues
We found a total of 37 customer accounts were misclassified under the
Residential Rate – Schedule RS3 that should have been classified under the



2
    Section 5 Resale Rates subsection (a) of the power contract between TVA and WRECC states “...power
    purchased hereunder shall be sold and distributed to the ultimate consumer without discrimination
    among consumers of the same class and that no discriminatory rate, rebate, or other special concession
    will be made or given to any consumer, directly or indirectly.”
3
    Under the Residential Rate – Schedule RS, customers are classified based on the following requirement:
    “This rate shall apply only to electric service to a single-family dwelling (including its appurtenances if
    served through the same meter), where the major use of electricity is for domestic purposes such as
    lighting, household appliances, and the personal comfort and convenience of those residing herein.”
Audit 2010-13286                                                                                       Page 4
Office of the Inspector General                                                                      Audit Report


General Power Rate – Schedule GSA.4 The GSA schedule is divided into three
parts—Part 1, Part 2, and Part 3—based on electric usage and demand.5 We
noted 3,164 customer accounts that appeared to be improperly classified based
on customer name and/or the existence of multiple accounts at the same
address. At our request, WRECC reviewed a sample of 459 of these accounts
that we judgmentally selected. WRECC determined 25 customer accounts
(5.4 percent) were incorrectly classified. In addition, during our review of
accounts with low usage, another 12 customer accounts were found to be
misclassified as residential by WRECC personnel. The monetary impact of the
classification issues detailed below would not be significant to WRECC or TVA.
Specifically, we noted:

    Thirty-four customer accounts were separately metered structures, such as a
     barn, garage, workshop, shed, etc., that should be classified as GSA Part 1.
    Two customer accounts were businesses that should have been classified as
     GSA Part 1.
    One customer account was a group home. According to TVA personnel, a
     group home is not considered a single-family dwelling; therefore, the
     RS schedule does not apply. Group homes should be classified within the
     appropriate part of the GSA schedule based on usage and demand takings.

According to WRECC personnel, the 37 customer accounts have been
reclassified from residential to the appropriate part of the GSA schedule.




4
    Under the General Power Rate – Schedule GSA, customers are classified based on the following
    requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) the
        customer’s monthly energy takings for any month during such period do not exceed 15,000 kilowatt
        hours (kWh).
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
5
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
Audit 2010-13286                                                                                           Page 5
Office of the Inspector General                                                                   Audit Report


Metering Issues
In addition to the customer classification issues, our review of billing agency data
noted one issue related to metering of customer accounts at WRECC. We were
unable to estimate the monetary effect because in some instances demand
meters were not in place that would provide information to calculate the
estimates. Specifically, we found 5 customer accounts classified as GSA Part 2
had energy usage in excess of 25,000 kilowatt hours (kWh) but were not
measured for demand.6 Under Part 2 of the GSA schedule and the Wholesale
Power Rate – Schedule WS with TVA, there would be no effect on the revenues
for TVA or the distributor unless the customer demand exceeded 50 kW. Without
demand meters in place or evidence indicating other circumstances exist that
would prevent a customer from exceeding demand of 50 kW, we could not
determine if these customer accounts would have exceeded 50 kW. In addition,
we identified another 13 accounts with energy usage in excess of 25,000 kWh
during the audit period. However, WRECC has installed or scheduled installation
of a demand meter at the location for 9 of these accounts. Service to 3 of these
accounts was either temporary or has been disconnected, and 1 account’s usage
reading greater than 25,000 kWh was due to a multiple month billing so no
further corrective action is necessary.

ADEQUATE CASH RESERVES
As of June 30, 2010, WRECC reported about $16.5 million in its cash and cash
equivalent accounts.7 WRECC management provided the planned FY 2011
capital expenditures, as shown in Table 2 below. WRECC funds its capital
expenditures through use of the United States Department of Agriculture, Rural
Utilities Services (RUS)8 Electric Program, and other loans.

                    WRECC’s FY 2011 Planned Capital Expenditures

                        Capital Expenditure Plans                                       Project Cost
Electric Plant                                                                                 $16,781,047
General Plant                                                                                    1,954,175
Contingencies                                                                                      273,000
Deferred Items                                                                                      85,000
  Total Planned Capital Expenditures                                                           $19,093,222
                                                                                                    Table 2




6
    On February 10, 2010, in response to a finding in a previous OIG distributor audit report, TVA issued
    guidance to distributors in Kentucky on how to evaluate whether a demand meter is needed when a
    customer’s usage reaches 25,000 kWh.
7
    The amounts related to the security service and monitoring division that were co-mingled with electric
    funds were excluded from cash reserves calculations.
8
    The United States Department of Agriculture, Rural Utilities Services Electric Program, provides
    leadership and capital to upgrade, expand, maintain, and replace America's rural electric infrastructure.
    Under the authority of the Rural Electrification Act of 1936, the Electric Programs make direct loans and
    loan guarantees to electric utilities to serve customers in rural areas.
Audit 2010-13286                                                                                       Page 6
Office of the Inspector General                                                                      Audit Report


WRECC plans to obtain approximately $9.4 million in RUS loans and will obtain
other loans to fund remaining capital expenditures. Because of the methods
WRECC has selected for funding its capital improvements, these items have
limited impact on WRECC’s ongoing cash position. Table 3 shows WRECC’s
cash ratio was about 11.7 percent, which is greater than TVA’s established
guidelines for an adequate cash ratio of 5 to 8 percent.9

                           WRECC’s Cash Accounts and Cash Ratio
                                                                  Cash and Cash
                                                                   Equivalents
                         FY 2010                                            $16,483,342
                         Cash Ratio                                              11.70%
                                                                                 Table 3

According to TVA records, over the past five years WRECC was approved for
three rate increases. Table 4 shows the rate increases received by WRECC and
the cash position and cash ratio at June 30 prior to the effective date of each rate
increase.

               WRECC’s Rate Increases, Cash Position, and Cash Ratio

      Cash on Hand                  Cash and Cash                               Rate Increase11
    Equivalent to an 8%        Equivalents10 as Reported
                                                                   Additional
        Cash Ratio                  and Cash Ratio                                 Percent      Effective Date
                                                                   Revenue

        $11,842,931                     $8,187,061                  $714,000        0.54%          10/1/2009
                                         (CR = 5.53%)

        $9,606,010                      $8,399,140                $2,000,000        1.51%          4/1/2008
                                         (CR = 6.99%)

        $7,627,378                      $5,982,430                  $405,851        0.38%          4/1/2006
                                         (CR = 6.27%)
                                                                                                         Table 4

Discussions with WRECC management indicated its operating philosophy is to
maintain and expand operations by using RUS loans, other loans, and cash from
the electric department general fund cash account as necessary.




9
     TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
     calculated as follows:                          Cash + Cash Equivalents_______________________
                             Total Variable Expenses (Operations and Maintenance + Purchased Power)
10
     The cash and cash equivalents and cash ratio were computed based on information from WRECC’s
     annual report as of June 30 prior to the effective date of the rate increase.
11
     These are the rate increases requested by and approved for the distributor. These increases do not
     include any rate increases or decreases made by TVA, including Fuel Cost Adjustments, which were
     passed through by the distributor to the customer.
Audit 2010-13286                                                                                           Page 7
Office of the Inspector General                                            Audit Report


TVA OVERSIGHT OPPORTUNITIES
We found one opportunity to enhance TVA’s oversight of this distributor.
However, the issue noted for this distributor has been reported in previous OIG
distributor audit reports. Specifically, we noted TVA has not performed a joint
cost study of WRECC in over 20 years even though the TVA Accountants’
Reference Manual calls for one to be performed every three to four years or
when major changes occur that affect joint operations.

In response to the previous reports, TVA agreed to take corrective actions on this
issue. Full discussion of this issue and TVA’s planned actions can be found in
prior OIG distributor audit reports on our Web site, www.oig.tva.gov.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
WRECC to improve compliance with the contract provisions. Specifically,
WRECC should:

1. Request approval from TVA to use electric system revenues for (1) principal
   and interest payments on the purchase of the propane sales subsidiary and
   (2) support of the security systems and monitoring services division.

    WRECC’s Response – WRECC agrees with the recommendation. WRECC
    will request that the board of Propane Energy Services, Inc., approve the
    payment of dividends to WRECC in the amount equal to the debt service
    annually on a fiscal year basis through FY 2015. WRECC has requested
    TVA perform a joint cost study for the security and monitoring services
    division in which WRECC's dispatch center performs services for the
    monitoring services. The joint cost study is currently in process, and a draft of
    the report should be available July 2011. See Appendix B for WRECC's
    complete response.

    TVA Management’s Comments – TVA management agrees that distributors
    may not use electric system revenues for nonelectric system purposes.
    Distributor has agreed to implement measures under which the propane sales
    subsidiary will make principal and interest payments on the loan with the loan
    being paid over approximately five years. Following discussion with TVA,
    distributor understands that going forward; electric system revenues shall not
    be used for nonelectric system purposes. With regard to the security systems
    and monitoring services division monitoring services division, distributor has
    informed TVA that it does not use electric system revenues to support the
    security systems and monitoring services division. TVA will work with
    distributor to ensure the appropriate arrangements are put in place for such
    joint use. The target completion date for this is May 2012. See Appendix C
    for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.
Audit 2010-13286                                                                Page 8
Office of the Inspector General                                              Audit Report


2. Request approval from TVA for the guaranteeing of nonelectric lines of credit
   with electric revenues for the propane sales subsidiary, natural gas
   distribution subsidiary, and partially owned bill processing company.

    WRECC's Response – WRECC agrees with the recommendation. WRECC
    will remove its name as guarantor for the lines associated with the propane
    sales subsidiary and the natural gas subsidiary. The board for PenWar, the
    partially owned bill processing company, approved to cancel the line of credit
    in May 2011. See Appendix B for WRECC's complete response.

    TVA Management’s Comments – TVA does not agree with this
    recommendation since it would be a use of electric revenues for nonelectric
    purposes. Distributor is taking action to remove distributor as guarantor of the
    line of credits for the propane subsidiary and natural gas distribution
    subsidiary. Distributor is no longer a guarantor of the line of credit for the bill
    processing company, as such line of credit has been cancelled. The target
    completion date for this is May 2012. See Appendix C for TVA’s complete
    response.

    Auditor’s Response – The OIG concurs with the planned actions.

3. Obtain approval from TVA prior to (1) any future investments of electric
   system revenues in nonelectric lines of business and (2) guaranteeing debts
   of nonelectric lines of business with electric system revenues.

    WRECC's Response – WRECC agrees with the recommendation. WRECC
    does not currently have any plans for entering other nonelectric lines of
    businesses. However, if it is considered in the future, management will
    discuss with TVA and have proper approvals in place before moving forward
    with the investment. See Appendix B for WRECC's complete response.

    TVA Management’s Comments – If distributor proposes to use electric
    system funds for the purposes set forth in the power contract, TVA would be
    happy to work with distributor to approve and put in place agreements to help
    prevent misuse of electric system funds or assets in violation of the power
    contract provisions and ensure compliance with the use of revenues
    provisions in Section 6 of the power contract. TVA has discussed with
    distributor using electric system funds only for the purposes set forth in the
    power contract, and distributor agrees. See Appendix C for TVA’s complete
    response.

    Auditor’s Response – The OIG concurs with the actions taken.

4. Create an independent general ledger and corresponding accounts for the
   security system and monitoring service division.



Audit 2010-13286                                                                  Page 9
Office of the Inspector General                                             Audit Report


    WRECC's Response – WRECC does not agree with the recommendation to
    set up an independent general ledger for the security system and monitoring
    service division. WRECC has requested a joint cost study to be performed by
    TVA to verify that the monthly amount charged is sufficient to cover the costs.
    A draft of the joint cost study report should be available July 2011. WRECC
    feels that the activity for the security system and monitoring division is
    adequately segregated within the current accounting system and does not
    plan at this time to set up a separate general ledger. See Appendix B for
    WRECC's complete response.

    TVA Management’s Comments – TVA management agrees with the
    recommendation to the extent necessary for the distributor to carry out the
    requirements of Section 1 of the Terms and Conditions of the power contract,
    which require it to maintain the electric system separate from its other
    operations. TVA discussed this recommendation with distributor, and
    distributor informed TVA that it does account separately for the expenses and
    revenues of the security system and monitoring services division. See
    Appendix C for TVA’s complete response.

    Auditor’s Response – WRECC’s response does not disagree with the OIG
    finding that WRECC comingled the electric system and security system and
    monitoring service division funds but indicates that due to the very limited
    activity related to the security system and monitoring division, it is not cost
    effective to set up a separate general ledger to manage the activity. The OIG
    suggests TVA and distributor management monitor the security system and
    monitoring service division’s level of activity and properly segregate these
    funds from those of the electric system as required under Section 6 of the
    wholesale power contract if the level of activity increases.

5. Implement procedures to assist in identifying accounts that need to be
   reclassified and prevent classification issues from recurring.

    WRECC's Response – WRECC agrees with the recommendation. During
    the audit, 37 customer accounts were identified as misclassified as
    residential. All accounts were reclassified to the appropriate GSA schedule
    during December 2010. WRECC has procedures in place to review new
    accounts to determine the proper classification is set up initially in the system.
    See Appendix B for WRECC's complete response.

    TVA Management’s Comments – TVA management agrees that the power
    contract requires consistent classification of customers in accordance with the
    applicable rate schedule. Distributor has agreed to carry out this
    recommendation. The target completion date for this action is May 2012.
    See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.


Audit 2010-13286                                                               Page 10
Office of the Inspector General                                            Audit Report


6. In accordance with the TVA Guidance to Distributors on Demand Meters
   issued in February 2010, review all customers’ usage greater than
   25,000 kWh and either install demand meters, or document the reason a
   demand meter is not needed.

    WRECC's Response – WRECC agrees with the recommendation. The
    customer accounts have been reviewed, and reasons have been documented
    as to why a demand meter was not needed; however, the method used was
    not the same as the TVA guidance. WRECC is currently in the process of
    gathering information issued in the guidance from TVA. WRECC plans to
    have the review completed by June 2012. See Appendix B for WRECC's
    complete response.

    TVA Management’s Comments – TVA management agrees. Distributor has
    agreed to carry out this recommendation. The target completion date for this
    action is May 2012. See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.

The Group President, Strategy and External Relations, should:

7. Review the distributor’s use of electric system revenues for (1) supporting the
   security systems and monitoring services division, (2) purchasing the propane
   sales subsidiary, and (3) guaranteeing lines of credit for subsidiaries. Ensure
   that proper approvals and appropriate legal documents are executed to
   protect the electric ratepayer in accordance with the power contract. 

    TVA Management’s Comments – TVA no longer approves of the use of
    electric system funds for nonelectric purposes and, as such, does not agree
    with the recommendation. However, distributor is working to comply with the
    power contract with respect to the security systems and monitoring services
    division, propane sales subsidiary, and the lines of credit for subsidiaries. In
    the meantime, TVA is working with distributor to determine what
    arrangements and agreements could be put in place to best protect the
    electric system with respect to the use of electric system revenues that have
    already been used by distributor in these ventures.

    Also going forward, if distributor proposes to use electric system funds for the
    purposes set forth in the power contract, TVA would be happy to work with
    distributor to put in place agreements to help prevent misuse of electric
    system funds or assets in violation of the power contract provisions and to
    ensure compliance with the standard use of revenue provisions in Section 6
    of the power contract. Going forward, if distributor proposes to use electric
    system funds for the purposes set forth in the power contract, TVA will work
    with distributor to approve and put in place agreements to help prevent
    misuse of electric system funds or assets in violation of the power contract
    provisions and to ensure compliance with the use of revenue provisions in

Audit 2010-13286                                                              Page 11
Office of the Inspector General                                           Audit Report


    Section 6 of the power contract. The target completion date for this action is
    May 2012. See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.




Audit 2010-13286                                                             Page 12
                                                                        APPENDIX A
                                                                         Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between the
Tennessee Valley Authority (TVA) and Warren Rural Electric Cooperative
Corporation (WRECC) including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period. To validate the reliability
    of the billing data, we compared the data to the information reported to TVA
    on the Schedule 1. No significant differences were noted, therefore the data
    was deemed reliable.
   Performed queries on data to identify classification, metering, and contract
    compliance issues. Reviewed results of the queries and, using nonstatistical
    sampling, selected accounts for further analysis and follow-up to determine
    whether misclassification, metering issues, or noncompliance with contract
    requirements occurred. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Limited our work on internal controls to those control deficiencies identified as
    contributing to noted instances of noncompliance with the power contract
    and/or the TVA Act.
   Determined through inquiry and review of documentation whether WRECC
    had any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listings for the audit period. Reviewed and analyzed
    disbursements to identify instances where electric system funds may have
    been used for purposes not allowed under the TVA power contract. Used
    nonstatistical sampling to select questionable disbursements for further
    analysis and follow-up. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
                                                                     APPENDIX A
                                                                      Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit, the quantitative factor considered in determining an item’s
significance is whether the item exceeds 3 percent of the average annual
purchased power from TVA for the audit period. For this audit, this amount
equaled $3,722,492. Also, for the purposes of this audit, we considered any
errors identified as systemic or intentional as significant.

The scope of the audit was for the period July 2008 through June 2010.
Fieldwork was conducted November 2010 through February 2011 and included
visiting WRECC’s offices in Bowling Green, Kentucky. This performance audit
was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDDIX B
 Page 1 of 3
APPENDDIX B
 Page 2 of 3
APPENDDIX B
 Page 3 of 3
APPENDDIX C
 Page 1 of 4
APPENDDIX C
 Page 2 of 4
APPENDDIX C
 Page 3 of 4
APPENDDIX C
 Page 4 of 4
